IN THE
SUPREME COURT OF THE UNITED STATES

EDWIN GONGORA,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, EDWIN GONGORA, through undersigned counsel and pursuant to Sup. CT.
R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the
above-styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the
Clerk of the Supreme Court of the United States, on the 24th day of July, 2020, which is the date

that the petition for writ of certiorari is due.

a 4 tile Lf.
Richard Afithony Merlino, Jr., ESq.

101 N.E. Third Avenue, Suite 110

Fort Lauderdale, FL 33301

Tel. No. 954-745-7497

Ft. Lauderdale, Florida 33301
July 2020
